No. 19-784

 

IN THE
Supreme Court of the United States

UNIVERSITY OF PENNSYLVANIA, ET AL.,

Petitioners,
v.

JENNIFER SWEDA, ET AL.,

Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,999 words, excluding the parts of the document that are exempted by Supreme

Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2020

 

CHLICHTER BOGARD & DENTON LLP

 
